CERTIFICATE OF COMPLIANCE
No. 20-1202

IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM J. MILLER,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

Although not formally required of documents filed under Supreme Court
Rule 33.2 (paper format), I, Mahesha P . Subbaraman, as a member of the Bar of
the Supreme Court and counsel-of-record for amicus curiae Restore the Fourth, Inc.,
nevertheless certify that the accompanying certiorari-stage amicus curiae brief:
•

Has been formatted in the rules-compliant typeface of Century
Schoolbook (12-point text and 12-point footnotes) ; and

•

Contains 3,820 words, excluding those parts of the brief exempted
by Supreme Court Rule 33. l(d).

Dated: April 14, 2021

